                   luation


                       ort




    JOINT PROFESSIONAL       MILITARY EDUCATION    PHASE II



Report Number 98-156                              June 16, 1998




              Office of the Inspector General
                  Department of Defense
Additional Copies

To obtain additional copies of this evaluation report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

Suggestions for Future Audits or Evaluations

To suggest ideas for or to request future audits or evaluations, contact the Planning
and Coordination Branch of the Analysis, Planning, and Technical Support
Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and
requests can also be mailed to:
                    OAIG-AUD (ATTN: Audit Suggestions)
                    Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                    Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 4249098; by sending an electronic message to Hotline@DODIG.OSD.MIL;
or by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
The identity of each writer and caller is fully protected.




Acronyms

AFSC                 Armed Forces Staff College
CJCS                 Chairman of the Joint Chiefs of Staff
FYDP                 Future Years Defense Plan
                     Inspector General
%L                   Joint Duty Assignment List
JPME                 Joint Professional Military Education
JSO                  Joint Specialty Officer
TDY                  Temporary Duty
                            INSPECTOR     GENERAL
                            DEPARTMENT   OF DEFENSE
                              400 ARMY NAVY DRIVE
                            ARLINGTON. VIRGINIA 22202



                                                                          June 16, 1998


MEMORANDUM FOR COMMANDANT OF THE MARINE CORPS
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, JOINT STAFF

SUBJECT: Evaluation Report on Joint Professional Military Education Phase II
         (Report No. 98-156)


        We are providing this evaluation report for review and comment. We
considered management comments on a draft of this report in preparing the final
report. Finding paragraphs A and B were revised based on comments from the Joint
Staff.

       The Navy, the Air Force, and the Marine Corps comments on the draft report
conformed to the requirements of DOD Directive 7650.3, and left no unresolved issues.
Therefore, no additional comments are required from the Services. Based on
comments from the Air Force, we deleted the Air Force from Recommendation A. 1.c.

        The Joint Staff did not provide the anticipated completion date of the study
planned in response to Recommendation B. 1., nor a concurrence or nonconcurrence
with the potential monetary benefits. We request the Director, Joint Staff provide
additional comments in response to this final report by August 17, 1998.

        We appreciate the courtesies extended to the evaluation staff. Questions on the
evaluation should be directed to Ms. Judith Heck, at (703) 604-9575 (DSN 664-9575),
e-mail address jheck@dodig.osd.mil.    See Appendix E for the report distribution. The
evaluation team members are listed inside the back cover.




                                         Roberf J . Lieberman
                                      Assistant Inspector General
                                              for Auditing
                            Of?‘ice of the Inspector General, DOD
Report No. 98-156                                                           June 16,1998
   (Project No. 7RB-9038)

                       Joint Professioxgllllli&ary      Education


                                  Executive Summary

 Introduction. The Goldwater-Nichols Department of Defense Reorganization Act of
 1986 (Goldwater-Nichols Act) requires DOD to establish joint billets and develop a
program of joint education. Joint Professional Military Education (JPME) is that
portion of professional military education which concentrates on the instruction of joint
 matters. JPME consists of a two-phase military educational requirement. Phase I is
incorporated into the curriculum taught to officers at Service-operated staff colleges.
The Phase II program deals with integrated strategic deployment, employment, and
 sustainment of air, land, sea, space, and special operations forces with an emphasis on
joint planning. The primary institution tasked with teaching JPME Phase II is the
Armed Forces Staff College (AFSC). The Industrial College of the Armed Forces and
the National War College also provide both JPME Phase I and Phase II for senior-level
officers. The Goldwater-Nichols Act also requires DOD to periodically review and
revise the curriculum of each JPME school to enhance the education and training of
officers in joint matters. Subsequent legislation mandates that the prim      course at the
AFSC be at least 3 months long. Of 9,317 joint billets identified in 199“r , the
Goldwater-Nichols Act requires that half (4,659 billets) must be filled by joint specialty
officers or nominees.

Evaluation Objectives. The evaluation objective was to determine whether the JPME
Phase II program was meeting the provisions of the Goldwater-Nichols Act. We
assessed the Services’ processes for assignment of officers to JPME Phase II and their
management of joint officer assignments. In addition, we evaluated the role of the
AFSC in the education of joint officers and the development of joint specialty officers.
We did not, however, review or analyze the content of the JPME Phase II curriculum.
We reviewed management controls relative to the evaluation objectives.

Evaluation Results. DOD established a joint educational program and joint officer
management policies as required by the Goldwater-Nichols Act. However, in
November 1997, there was a shortfall of 189 JPME Phase II raduates in joint billets.
This shortfall limited the number of JPME Phase II-trained o f5icers required by the
Goldwater-Nichols Act (Finding A).

The length of the JPME Phase II 12-week course at the AFSC needs to be reevaluated
while maintaining the quality of the education. The length of the course is mandated
by Title 10, United States Code, Section 663 (10 U.S.C. 663). Reducing the length of
the course and adding another course at the AFSC could result in an increased
throughput of approximately 200 or more students annually (Finding B).

Lower per diem costs could be realized if the JPME Phase II course length is reduced.
See Part I for a discussion of the evaluation results and Appendix D for a summary of
potential benefits.
Management Controls. The management controls we reviewed were effective in that
we found no material weaknesses. See Appendix A for details on the management
control program.

Summary of Recommendations. We recommend that Navy, Air Force, and Marine
Corps personnel managers maximize the practice of sending officers to the AFSC en
route to joint billets. We also recommend that the Navy, the Air Force, and the
Marine Corps, schedule officers, who attend the AFSC after reporting to their joint
billets, as early as possible within the first year of their joint assignments. Further, we
recommend that the Navy and the Marine Corps aggressively use alternate student lists
for JPME Phase II to take advantage of any seats vacated. We recommend that the
Navy send more officers to joint assignments after they attend the AFSC. We
recommend that the Director, Joint Staff, designate a single point of contact to
coordinate last minute JPME Phase II course substitutions. We also recommend that
the Director, Joint Staff, examine the JPME Phase II course and determine how much
it can be shortened while still maintaining the quality of joint education and achieving
the desired benefits of multi-Service acculturation. Further, we recommend that the
Director, Joint Staff, confirm combatant commanders’ support for a shortened JPME
Phase II course at the next commanders’ conference and determine what change to
10 U.S.C. 663 is deemed necessary.

Management Comments. The Navy stated that it established a priority assignment
policy, giving AFSC seats to officers en route to or within the first year of their joint
assignments. It will aggressively pursue sending officers to JPME Phase II within the
first year of their joint assignments, and will make every effort to detail AFSC
graduates to joint activities. The Air Force stated that it improved its number of joint
officers attending en route to the AFSC and will continue to maximize this practice.
Further, the Air Force is sending 81 percent of its officers to the school within the first
year of their joint assignments, and will continue to make that a priority. The
Marine Corps stated that it will fill as many quotas as possible with officers en route to
their joint assignments. It is, however, limited by organizations who are unwilling to
accept a 3-month gap in a position. Further, the Marine Corps will make every effort
to schedule officers for the AFSC within the first year of their joint tours and will
continue to aggressively use standby lists. The Joint Staff stated that it designated a
single point of contact (J-7) to coordinate substitutions at the school. Further, it is
reviewing all JPME objectives, course length, faculty, and instructive modes, and will
coordinate recommendations with the combatant commanders. We received unsolicited
comments from the U.S. Central Command and the U.S. Pacific Command. Both
commands agreed with sending officers to the AFSC en route to joint billets and
supported a reduction in course length. See Part I for a discussion of the comments
and Part III for the full text of the comments.

Evaluation Response. The Navy, Air Force, and Marine Corps comments on the
draft report were responsive. However, we request that the Director, Joint Staff
provide the anticipated completion date of the study planned in response to the
recommendation to shorten courses and a concurrence or nonconcurrence with potential
monetary benefits by August 17, 1998.




                                             ii
Table of Contents

Executive Summary
Part I - Evaluation Results
      Evaluation Background
      Evaluation Objectives
      Finding A. Shortage of Joint Professional Military Education Phase II
                 Graduates
      Finding B. Joint Professional Military Education Phase II Course Length

Part II - Additional Information
      Appendix A. Evaluation Process
        Scope and Methodology
        Management Control Program
      Appendix B. Summary of Prior Coverage
      Appendix C. Service Joint Professional Military Education Phase II
                  Processes
      Appendix D. Summary of Potential Benefits
      Appendix E. Report Distribution

Part III - Management Comments
      Department of the Navy Comments                                           32
      Department of the Air Force Comments                                      39
      Joint Staff Comments                                                      41
      U. S . Pacific Command Comments                                           52
      U. S . Central Command Comments                                           54
Part I - Evaluation Results
Evaluation Background

    Introduction.   Joint Professional Military Education (JPME) is that portion of
    professional military education which concentrates on the instruction of joint
    matters. It is geared toward providing officers with a broad base of joint
    professional knowledge and developing officers with experience and education
    to improve strategic and operational capabilities of joint forces. JPME consists
    of a two-phase military educational requirement. Phase I is incorporated into
    the curriculum taught to officers at Service-operated staff colleges. Phase II is
    the follow-on portion of that educational process and complements Phase I. The
    Phase II program deals with integrated strategic deployment, employment, and
    sustainment of air, land, sea, space, and special operations forces with an
    emphasis on joint planning. The main provider of Phase II education is the
    Armed Forces Staff College (AFSC) in Norfolk, Virginia. Both phases of
    JPME are available for senior-level military personnel at the Industrial College
    of the Armed Forces and the National War College, both located at Fort
    McNair, Washington, D.C. The three colleges have the capacity of graduating
    an average of 1,200 officers with JPME Phase II education each year.

    Goldwater-Nichols      Department of Defense Reorganization Act of 1986. In
     1986, Congress passed the Goldwater-Nichols Department of Defense
    Reorganization Act (Goldwater-Nichols Act). The Goldwater-Nichols Act
    requires DOD to establish joint billets and to develop a program of joint
    education. It tasks the Secretary of Defense, with advice from the Chairman of
    the Joint Chiefs of Staff (CJCS), to enhance the education and training of
    certain officers in joint matters and to periodically review and revise joint
    curriculum.

    Professional Military Education Panel, In 1987, Congress established a
    working group, the Professional Military Education Panel (the Skelton Panel),
    chaired by Congressman Ike Skelton of Missouri, to determine how DOD was
    implementing the JPME requirements of the Goldwater-Nichols Act. The
    Skelton Panel issued a report in April 1989 recommending a two-phase
    approach to JPME, with Phase I accomplished at the intermediate Service
    colleges and Phase II at the AFSC. The panel also recommended that the
    Phase II course be 3 months in length. Before April 1989, the AFSC was
    teaching the dmonth Joint Combined Staff Officer School primarily for
    lieutenant commanders and majors, graduating two classes each year. In 1990,
    the AFSC adjusted its program to comply with congressional requirements for
    JPME. The AFSC revised its curriculum by replacing the 6-month course with
    a two-level curriculum (intermediate and senior) to rovide Phase II joint
    education. Intermediate-level officers completed a 8 -week curriculum while
    senior officers were in a 5-week JPME Phase II curriculum. In 1991, the
    intermediate course was expanded to 12 weeks. In 1994, the senior course was
    also expanded to 12 weeks.

    Joint Policy Guidance. The Goldwater-Nichols Act requires DOD to establish
    joint officer management policies. DOD Directive 1300.19, “DOD Joint Officer
    Management Program, n September 9, 1997, and DOD Instruction 1300.20,
     “DOD Joint Officer Management Program Procedures, n December 20, 1996,

                                       2
provide the required guidance, assigning overall responsibility for the
monitoring of the Joint Officer Management Program to the Assistant Secretary
of Defense (Force Management Policy). Additionally, the CJCS has specific
responsibility for implementing Office of the Secretary of Defense policies
regarding the Joint Officer Management Program and for formulating policies
for training and educating Armed Forces personnel. The CJCS issued an
implementing instruction, CJCS Instruction 1800.01, “Officer Professional
Military Education Policy, n March 1, 1996, which promulgates policies,
procedures, objectives, and responsibilities for professional military education
of officers.

Joint Staff. Although the Assistant Secretary of Defense (Force Management
Policy) has overall responsibility for the management of the Joint Officer
Management Program, the Joint Staff is tasked with implementing the program.
Two Joint Staff directorates, the Director for Manpower and Personnel (J-l) and
the Director for Operational Plans and Interoperability (J-7), play important
roles in the Joint Officer Management Program. The J-l maintains the database
for joint personnel and coordinates with the Services on selection of personnel
to become joint specialty officers (JSOs). The J-7 has overall responsibility for
oversight and accreditation of the military college system.

National Defense University. The parent organization of the colleges
providing JPME Phase II is the National Defense University, located at Fort
McNair, Washington, D.C. Three National Defense University colleges
provide JPME Phase II to military officers: the AFSC, the Industrial College
of the Armed Forces, and the National War College. The AFSC offers
two JPME Phase II courses, both 12 weeks long: an intermediate course for
junior-level commanders, lieutenant commanders, junior-level lieutenant
colonels, and majors; and a senior course for colonels, captains, senior-level
lieutenant colonels, and senior-level commanders. The intermediate course is
offered four times each year and graduates an average of 200 students per class.
The senior course is offered three times each year and graduates an average of
30 students per class. The Industrial College of the Armed Forces and the
National War College provide a lo-month curriculum for senior-level officers
and graduate approximately 300 students per year; their graduates are certified
as having met the requirements of both JPME Phase I and Phase II.

 Role of the Services. Personnel centers for the Services play the central role in
 assigning officers to joint billets and in selecting officers for JPME Phase II.
 Each Service has a separate, dedicated branch to oversee joint officer matters.
 The Services are responsible for selecting personnel to attend JPME Phase II
 and for assigning personnel to follow-on joint duty. The Services are
responsible for managing assignments to ensure the DOD is in compliance with
the Goldwater-Nichols Act requirements by maximizing the temporary duty
 (TDY) assignment of personnel to the AFSC when they are en route to their
joint assignment (TDY en route) so that key jobs at joint organizations are not
left vacant. In accordance with CJCS Instruction 1800.01, an officer who
cannot attend TDY en route, due to the limited capacit of the AFSC, should be
sent TDY to attend the course within the first year of x e joint tour and then
returned to duty (TDY and return). Given these constraints, Joint Staff
procedures encourage each Service component responsible for assigning

                                    3
     personnel to JPME Phase II to maintain a standby list to fill those seats that
     might otherwise go vacant. See Appendix C for a description of Service
     selection and coordination procedures for JPME Phase II.

     Joint Duty Assignment Lii. The Joint Duty Assignment List (JDAL) is a
     consolidated list of joint duty assignment billets approved by the Assistant
     Secretary of Defense (Force Management Policy). Billets on the JDAL are
     those positions in a multi-Service activity that involve the employment or
     support of the air, land, or sea forces of at least two of the three Military
     Departments. Throughout 1997, the JDAL fluctuated between 9,172 and
     9,359 joint billets.
     Joint Specialty Offkers. The Goldwater-Nichols Act requires DOD to fill
     50 percent of JDAL billets with JSOs or JSO nominees. Officers eligible to be
     designated JSOs have completed both phases of JPME and have served a full
     tour in a billet on the JDAL. The Military Departments review the records of
     officers who meet the criteria and recommend officers to the Secretary of
     Defense for final designation as JSOs. Officers serving in joint billets who have
     completed both phases of JPME are considered JSO nominees. Additionally,
     officers serving in up to 12 l/2 percent of JDAL billets who possess a critical
     occupational specialty are also considered JSO nominees, regardless of whether
     or not they have completed JPME Phase II. Each Service has the responsibility
     of ensuring that 50 percent of JDAL billets are filled with JSOs or nominees.


Evaluation Objectives
     The evaluation objective was to determine whether the JPME Phase II program
     was meeting the provisions of the Goldwater-Nichols Act. We assessed the
     Services’ processes for assignment of officers to JPME Phase II and their
     management of joint officer assignments. In addition, we evaluated the role of
     the AFSC in the education of joint officers and the development of JSOs.
     Finally, we reviewed management controls relative to the evaluation objectives.
     Appendix A describes the evaluation scope and methodology and the results of
     the review of management controls. Appendix B summarizes prior coverage
     related to the evaluation objective. Appendix C provides additional background
     information pertaining to the evaluation.




                                         4
            Finding A. Shortage of Joint
            Professional Military Education
            Phase II Graduates
            In November 1997, there was a shortfall of 189 JPME Phase II
            graduates in joint billets. Factors contributing to this shortfall were the
             timing of attendance, the assignment of Navy graduates to other than
            joint billets, the empty seats caused b late withdrawals, and the
            throughput at the Armed Forces Staf fyCollege due to its limited capacity.
            This shortfall limited the number of JPME Phase II-trained officers
            required by the Goldwater-Nichols Act.


Requirements of the Goldwater-Nichols Act
     DOD was meeting the Goldwater-Nichols Act requirement to establish policies,
     procedures, and practices for officers oriented and trained toward joint matters.
     However, not enough officers assigned to joint billets were being sent to JPME
     Phase II prior to or during a joint assignment. The Goldwater-Nichols Act
     requirement that 50 percent of JDAL billets must be filled by JSOs or nominees
     was not being met.


Capacity of the JPME Phase II Institutions

    The AFSC provides the largest number of JPME Phase II graduates. The
    annual capacity of its intermediate program is 810 students, and the annual
    capacity of its senior program is 90 students. If filled to maximum capacity,
    and with a 100 percent completion rate, the AFSC could graduate 900 students
    each year. Annually, the capacity of the Industrial College of the Armed
    Forces and the National War College is approximately 300. The Goldwater-
    Nichols Act requires that more than 50 percent of the graduates of the Industrial
    College of the Armed Forces and the National War College be sent to joint
    billets following graduation. Combined, the three colleges can graduate enough
    JPME Phase II graduates to fill half of all JDAL billets.

    Number of JPME Phase II Graduates. There was a shortfall of officers in
    joint billets who were JPME Phase II graduates. In November 1997, the JDAL
    consisted of 9,317 ‘oint billets. The Goldwater-Nichols Act requires that 4,659
    of those billets be #illed b JSOs or nominees. As of November 1997, only
    4,470 joint billets were firled by JSOs or nominees; 189 billets DOD-wide that
    required JPME Phase II graduates were not appropriate1 filled. During the
    year 1997, the number of JDAL billets fluctuated from B,172 to 9,359. When
    the JDAL had 9,172 billets, the shortfall was 88. The Army was the only
    Service that consistently met the Goldwater-Nichols Act requirements for


                                         5
Fiiding A. Shortage of Joint Professional Military Education Phase II Graduates



      filling 50 percent of its joint billets with JSOs or nominees. The Air Force
      generally met the requirements for filling 50 percent of its joint billets with
      JSOs or nominees in 1997.


Shortfall Factors

      We attributed the shortfall of JPME Phase II graduates to four factors: the
      timing of attendance; the assignment of Navy graduates to other than joint
      billets; the empty seats caused by late withdrawals; and the throughput at the
      AFSC due to its limited capacity.

      Tiig      of Attendance. To take full advantage of their joint education and to
      ensure compliance with the Goldwater-Nichols Act, officers being sent to joint
      billets should attend JPME Phase II as early as possible. The CJCS
      Instruction 1800.01 states that, optimally, officers should complete their joint
      education prior to or within the first year of their joint assignments. However,
      limited course availability at the AFSC and Service assignment priorities
      precluded most officers assigned to joint billets from going to the JPME
      Phase II course TDY en route. Officers who attend the AFSC TDY en route
      subsequently count as JPME Phase II graduates for the entire 36-month joint
      tour. In academic year 1996, 264 officers (30 percent) who completed JPME
      Phase II at the AFSC were TDY en route. In academic year 1997, 280
      (33 percent) were TDY en route.

      For officers attending the AFSC in a TDY and return status, the sooner they
      attend, the longer they will count as a JSO nominee in a joint billet. In
      academic year 1996, only 345 officers attending in a TDY and return status
      completed JPME Phase II within the first year of their joint assignment;
      231 attended after their first year. In academic year 1997, only 272 TDY and
      return officers completed JPME Phase II within their first year; 241 attended
      after their first ear. Services and joint activities are required to schedule and
      release joint of f!cers for course attendance as early in their joint tours as
      possible within the fist year. The purpose is to maximize the use of education
      in joint assignments and to facilitate Service compliance with statutory
      requirements. However, Service personnel managers reported they had minimal
      influence over the release of officers by the combatant commands or other joint
      agencies. Although the Services are responsible for joint officer education,
      their control is limited if the organization to which the officer is assigned holds
      the authority to release the officer to attend the AFSC JPME Phase II course.

      Assignment to Joint Billets. Assigning AFSC graduates to non-joint billets
      contributed to the shortage of JPME Phase II graduates filling JDAL billets. In
      academic year 1996, the Navy sent 40 (19 percent) of its JPME Phase II
      graduates to non-joint billets. In academic year 1997, the Navy sent 34
      (18 percent) of its graduates to non-joint billets.

      Late Withdrawals. Late withdrawals of officers from the JPME Phase II
      attendance list at the AFSC resulted in unfilled course seats. Late withdrawals

                                           6
 F’inding A. Shortage of Joint Professional Military Education Phase II Graduates



      were made by the joint activities to which officers were assigned. Efforts had
      recently  been concentrated on achieving 100 percent capacity at the AFSC;
      however, only 241 of the 246 seats were filled in the September 1997 JPME
      Phase II course. Three of the four Services did not meet their quotas for filling
      seats. Organizations to which the officers were assigned withdrew a total of
      28 officers less than 45 days prior to the course start date. Operational
      necessity and mission requirements were the key reasons cited by the
      organizations making the withdrawals. Substitutions were made for the
      majority of the 28 withdrawals. The Air Force made the most aggressive and
      effective use of its standby list, as evidenced by the Air Force filling
      100 percent of its quota for academic year 1997 and filling vacant seats of other
      Services. Although CJCS Instruction 1800.01 authorizes the president of the
      National Defense University to reallocate unfilled university spaces, that level
      of control is not practical, and organizations involved in the scheduling process
      stated it was not clear which office adjudicates the question of moving unfilled
      billets from one Service to another.

      Seats at the AFSC are highly sought after by other officers serving in joint
      assignments, and there is a pool of officers assigned to joint billets who have
      not had the opportunity to attend JPME Phase II. Every course that had vacant
      seats not only decreased the cost-effectiveness of the AFSC, but also contributed
      to the shortage of JPME Phase II graduates.

      Limited Capacity. The capacity of the AFSC was a significant factor in the
       shortage of JPME Phase II graduates. Less than half of all officers assigned to
      joint billets had attended JPME Phase II. Increased throughput at the AFSC
      could be achieved by reducing the length of the JPME Phase II course and
      adding an additional course, thereby increasing the number of graduates by
      approximately 200 to 225 annually. Increasing throughput at the AFSC would
      potentially eliminate the shortage of JPME Phase II graduates. Course length is
      addressed separately in Finding B.


Pilot Notification Program

      In 1997, the Joint Staff, in conjunction with the AFSC, established a pilot
      notification program to improve throughput by improving the process for
      coordinating course attendance. The program involves a sequence of
      coordination messages at specific intervals prior to course starting dates. Late
      changes to the attendance list are required to be fully justified and coordinated
      with the AFSC and the Joint Staff. A goal of this program is to maximize the
      number of officers who attend the course TDY en route, as opposed to attending
      the course TDY and return. The coordination process improved and resulted in
      more filled seats; however, problems still existed with the attendance since the
      September 1997 course had five unfilled seats. Increased coordination among
      the Services, combatant commands, and other organizations is expected to
      further improve the scheduling process and attendance.



                                          7
Finding A. Shortage of Joint Professional Military Education Phase II Graduates



JDAL Validation
      A review and reevaluation of the JDAL by the Joint Duty Assignment List
      Validation Roard began in June 1996. The purpose of the review is to assess the
      joint content of JDAL positions, to validate current positions, and to consider
      the appropriateness of mcluding new positions on the JDAL. Further, the
      review is to ensure the JDAL is the proper size to meet the criteria and intent of
      the Goldwater-Nichols Act. The review is an ongoing process instituted by the
      Office of the Under Secretary of Defense for Personnel and Readiness, that
      continually modifies the JDAL. In April 1996, the number of billets on the
      JDAL was 9,349; at the end of 1997, the JDAL was 9,247. The number of
      billets on the JDAL affects the number of JPME Phase II graduates required.


Conclusion
      The Goldwater-Nichols Act requires that 50 percent of the billets on the JDAL
      be filled with officers who meet specific qualifications, including educational
      requirements. The AFSC and Joint Staff implemented a program to address
      shortfalls caused b late withdrawals. Their continued efforts to address that
      factor as well as e rforts aimed at other factors will be vital to eliminating the
      shortfall of JPME Phase II graduates. Additionally, more officers should attend
      JIWE Phase II en route to their joint assignments; officers who do not attend
      the course en route should be sent as early as possible within the first year of
      their joint tours; and graduates of JPME Phase II should subsequentl be
      assigned to a joint billet. In order to maintain a pool of qualified of E!leers to
      comply with the requirements of the Goldwater-Nichols Act, DOD must
      maintain a continuing flow of personnel into the joint community; ensure that
      the take the JPME courses required by law and DOD policies; and assign those
      of fyleers to joint billets on the JDAL. Even if the JDAL validation reduces the
      number of joint billets, the goal of DOD should be to fill as many joint billets as
      feasible with JPME Phase II graduates to benefit from their educational
      experience.


Management Comments on Finding and Evaluation Response
      Joint Staff Comments. The Joint Staff did not agree with the last sentence of
      the draft report finding paragraph, regarding the shortage of JPME Phase II
      graduates which limited the level of joint expertise. The Joint Staff stated that
      the current management system report indicates that JDAL positions are filled
      with 53 percent JSOs and JSO nominees.

      Evaluation Response. After a review of the Joint Staff comments, we revised
      the last sentence of Finding A.
Finding A. Shortage of Joint Professional Military Education Phase II Graduates



Recommendations, Management Comments, and Evaluation
Response
     A.l.   We recommend that:

            a. The Chief of Naval Personnel, the Commander, Air Force
     Personnel Center and the Assistant Deputy Chief of Staff for Manpower
     and Reserve Affairs, U.S. Marine Corps, establish the necessary controls
     and procedures to maximix the practice of sending officers to the Armed
     Forces Staff College en route to a joint billet.

     Navy Comments. The Navy concurred and indicated it will review and revise,
     as appropriate, all policies and directives pertaining to follow-on joint duty
     assignments to emphasize maximum use of AFSC quotas en route to joint
     billets. It will complete review of the policy by September 30, 1998.

     Air Force Comments. The Air Force concurred with the intent of the
     recommendation, stating that it is maximizing the practice of sending officers
     TDY en route to the AFSC, and has improved by 3 percent the overall number
     of officers attending en route over the last 3 years. It will continue to send
     officers TDY en route, but the number of officers sent TDY en route is affected
     by assignment reporting dates and scheduled classes, over which the Air Force
     has little control.

     Marine Corps Comments. The Marine Corps concurred, stating that it
     executes its assignments to joint duty during the summer months and fills as
     many of those AFSC seats as possible with offkers TDY en route. The Marine
     Corps is limited, however, by parent organizations whose requirements do not
     always coincide with joint training requirements, and who are unwilling to
     accept a 3-month gap in a position without benefit of a turnover. The Marine
     Corps indicated that it will continue to send officers TDY en route within the
     constraints that arise from the requirements of the parent organizations.

            b. The Chief of Naval Personuel, the Commander, Air Force
     Personnel Center, and the Assistant Deputy Chief of Staff for Manpower
     and Reserve Affairs, U.S. Marine Corps,      schedule officers who attend the
     Armed Forces Staff College after reporting to their joint assignments as
     early as possible within the first year of those joint assignments.

     Navy Comments. The Navy concurred, stating that it has established an
     assignment policy givin priority for AFSC seats to officers en route to or
     within their first year o Bjoint activities. Further, the Nav will establish
     procedures by September 30, 1998, to systematically noti ry joint activities of
     officers lacking JPME Phase II.

     Air Force Comments. The Air Force concurred with the intent of the
     recommendation, stating that it is sending 81 percent of its officers to AFSC



                                         9
Finding A. Shortage of Joint Professional Military Education Phase II Graduates



      within the first year of their joint assignments.The Air Force continues to
      make that the priority after those officers who attend AFSC TDY en route to
      their new joint positions.

      Marine Corps Comments. The Marine Corps concurred, stating that, although
      its intention was to send 100 percent of its officers to the AFSC JPME Phase II
      course within the first year of the joint duty assignment, it was not always able
      to do so. The joint organizations to which the officers were assigned have not
      always agreecl to release them. The Marine Corps, however, will make every
      effort to schedule officers for the AFSC within the first year of their joint tours.

              c. The Chief of Naval Personnel and the Assistant Deputy Chief of
      Staff for Manpower and Reserve Affairs, U.S. Marine Corps, aggressively
      use standby lists of alternate students to fill any seats vacated.

      Navy Comments. The Navy concurred, stating that it will include this
      recommendation in the procedures it plans to complete by September 30, 1998.

      Air Force Comments. The Air Force concurred with the intent of our
      recommendation, stating that it already complies.

      Evaluation Response. We agree with the Air Force comments, and therefore,
      have removed the Air Force as an addressee of this recommendation.
      Marine Corps Comments. The Marine Corps concurred, stating that it has
      and will continue to aggressively use its standby list to ensure it fills as many of
      the quotas as possible. In each of the last 3 years, the Marine Corps surpassed
      its total allocation of officers attending the AFSC.

      A.2. We recommend that the Chief of Naval Personnel take steps needed
      to ensure that more officers are assigned to joint billets following
      attendance at the Armed Forces Staff College.

      Navy Comments. The Navy concurred, stating that it will review its
      assignment policy and make every effort to detail AFSC graduates to joint
      activities to the maximum extent possible. The review will be completed no
      later than September 30, 1998.

      A.3. We recommend the Director, Joint Staff, in order to reduce late
      withdrawals and prevent empty seats at the Joint Professional Military
      Education Phase II courses at the Armed Forces Staff College, designate a
      single point of contact to coordinate last minute substitutions.

      Joint Staff Comments. The Joint Staff neither concurred nor nonconcurred,
      but stated that action has been taken through a February 1998 revision to CJCS
      Instruction 1800.01.

      Evaluation Response. The Joint Staff comments are responsive to our
      recommendation.



                                           10
           Finding B. Joint Professional Military
           Education Phase II Course Length
           The length of the JPME Phase II 12-week course needs to be reevaluated
           while maintaining the quality of the education. The current course
           length is mandated by congressional legislation. Reduced course length
           and an added class would increase JPME Phase II graduates at AFSC by
           approximately 200 to 225 students annually.


Background

    Purpose of the JPME phase II Course. The purpose of the JPME Phase II
    course is to educate and provide a pool of officers trained in joint matters and to
    develop JSOs. The course is designed to build the joint perspective, with an
    emphasis on providing officers with expertise in the integrated strategic
    deployment, employment, and sustainment of air, land, sea, space, and special
    operations forces. The development of a two-phase program for JPME was
    recommended b the Skelton Panel in 1989, as previously discussed. In 1991,
    Congress amen l ed 10 U. S .C. 663 to require that the principal course of
    instruction at the AFSC, JPME Phase II, be no less than 3 months.

    Acculturation. Another purpose of the AFSC JPME Phase II course is the
    acculturation of its students. For the duration of the course, students study,
    live, and work together. Every effort is made to intermingle students from the
    different Services in all aspects of the program. The seminars, living
    arrangements, and participation in social activities and sports are designed to
    facilitate understanding of the other Services’ perspectives and methods of
    operation. This acculturation process has been in place since 1991, when the
    AFSC expanded the JPME Phase II intermediate course to 12 weeks.


Course Length Could Be Shortened
    Joint Maturation. Students arriving for the JPME Phase II course have
    increased knowledge of joint warfighting methodology and multi-Service
    doctrine. An unquantifiable number of students have been exposed to jointness
    through participation in joint operations ranging from Operation Desert Storm in
    Southwest Asia to Operation Joint Endeavor in Bosnia. JPME Phase I also
    exposes students to joint warfighting methodology and multi-Service doctrine.
    This “joint maturation” in JPME Phase I creates students with a much broader
    knowledge and a greater appreciation of the other Services’ capabilities.

    Combatant Command Responses. Personnel at all nine combatant commands
    reported the JPME Phase II program at the AFSC was too long. While they did
    not want to sacrifice the quality of joint education provided at the AFSC, they
    indicated the current 12-week JPME Phase II course could be shortened to 8

                                        11
Finding B. Joint Professional Military Education Phase II Course Length



      or 9 weeks, while still maintaining the same quality of joint education.
      Personnel at the combatant commands indicated the 12-week course length was
      a factor in their reluctance to release officers to attend the course. That
      reluctance was shared by other joint organizations, contributing to the shortage
      of JPME Phase II graduates. A shorter course would have less impact on
      organizations’ missions, cause less disruption, and decrease gaps of critical
      personnel, especially in cases where the attendees are in positions that have only
      one person to do a specific job. Organizations withdrawing students from the
      attendance list within days of a course’s starting date significantly contributed to
      the shortfall of JPME Phase II graduates, as discussed in Finding A.

      Graduate Responses. We interviewed 58 JPME Phase II graduates of AFSC
      who were serving in joint billets and 31 supervisors of graduates at the
      combatant commands and the Joint Staff: 66 out of those 89 individuals
      (74 percent) indicated that the JPME Phase II course at the AFSC was too long
      and that the course objectives could be attained in a shorter period of time.
      Overall, they agreed the course was beneficial and particularly helpful in
      understanding how their counterparts in the other Services operated.

      Operational Impact. Most officers attended the 12-week JPME Phase II
      course at the AFSC after they began their joint assignments (61 percent of
      attendees in academic year 1997). Joint assignments are normally for
      36 months, so time spent at the JPME Phase II course could account for
      approximately 8 percent of an officer’s joint tour. A shorter JPME Phase II
      course would take less time from an officer’s joint assignment, while also
      allowing the AFSC to offer one additional course each year, increasing the
      opportunity for more officers to attend JPME Phase II. The billets many joint
      officers fill are operational and warfighting jobs essential to the organizations.
      The more time JPME Phase II graduates can spend performing the duties of
      their joint assignments, the higher the operational readiness of their
      organizations.

      Course Length Could be Shortened. With operational impact in mind, and
      based on questionnaire responses and our interviews, we believe the need for a
      12-week JPME Phase II course no longer exists and that a shorter JPME
      Phase II course would better serve the students and the organizations to which
      they are assigned. The AFSC agreed with our recommendation to capture data
      on the issue directly from JPME Phase II graduates and modified its graduate
      feedback questionnaire accordingly.


Reducing Course Length and Increasing Throughput
      Reducing the course length of JPME Phase II at the AFSC would require a
      change in 10 U.S.C. 663, which requires the principal course of instruction at
      the AFSC to be no less than 3 months. A reduction in the course length from
      12 weeks to 8 or 9 weeks would result in an increase in productive time;
      commands would be able to use their joint officers for more of their tours.
      Additionally, a reduction in course length would allow the AFSC to increase the

                                           12
       Finding B. Joint Professional Military Education Phase II Course Length



     number of JPME Phase II intermediate courses from four to five per year. That
     could increase the annual throughput of the AFSC by approximately 200 to 225
     officers, a possible 25 percent increase, thereby increasing the number of
     opportunities for the combatant commands and other joint organizations to
     educate more of their joint staffs. Another impact of the changes would be to
     eliminate the shortfall of JPME Phase II graduates, bringing DOD in compliance
     with the requirements of the Goldwater-Nichols Act.


Potential Economies and Efficiencies
     Facing reduced resources, the DOD can realize some fiscal economies if the
     JPME Phase II course at the AFSC could be shortened without sacrificing the
     quality of education. Reducing the AFSC JPME Phase II course length would
     result in a reduction in the overall cost of educating each graduate. The
     Services would have lower per diem costs, including lodging and meal
     allowance for each JPME Phase II student. Reducing the course length to
     8 weeks would reduce overall per diem costs by $1,529 per person. Even
     adding another class of 200 to 225 officers to the AFSC schedule, DOD would
     still realize $700,000 to $775,000 in funds put to better use annually in the form
     of lowered per diem costs. The amount would be somewhat reduced by the
     additional transportation costs of $95,000 to $107,000 annually (approximately
     $475 per person) and would result in funds put to better use in the amount of
     $593,000 to $680,000. Based on the Future Years Defense Plan (FYDP), that
     could amount from $3.6 million to $4.1 million for DOD over a 6-year period.
     The overall amount of reduced expenditures would be changed if the course
     were reduced to 9 weeks instead of 8 weeks. A reduction in course length to
     9 weeks would result in funds put to better use in the amount of $163,000 to
     $259,000 annually considering lowered per diem costs and additional
     transportation costs. See Appendix D for further details.


Conclusion
    Personnel at combatant commands and recent graduates of the Armed Forces
    Staff College indicated the JPME Phase II course of instruction at the AFSC
    was too long and that the benefits of the course could be achieved with the same
    quality results in a shorter period of time. A shorter course would reduce
    impact on the combatant commands and other joint organizations, and critical
    operational and warfighting jobs would not be gapped for as long a period of
    time. Some economies and efficiencies could be achieved in the cost of sending
    an offLzcr to the AFSC, resulting in a reduction of per diem costs by 33 percent
    for each officer, if the course length were reduced to 8 weeks.




                                         13
Finding B. Joint Professional Military Education Phase II Course Length




Management Comments on Finding and Evaluation Response
      Joint Staff Comments. The Joint Staff did not agree with the first sentence of
      the finding paragraph, regarding course length. Input from the President,
      National Defense University and the Commandant, AFSC included in comments
      from the Joint Staff emphasized that our evaluation did not review or analyze
      the content of JPME curriculum.

      Evaluation Response. After a review of the Joint Staff comments, we revised
      the first sentence of Finding B.


Recommendations, Management Comments, and Evaluation
Response

      B.l. We recommend that the Director, Joint Staff, examine the curriculum
      and determine how much the Joint Professional Military Education
      Phase II course can be shortened without diminishing the quality of joint
      education or diminishing the desired benefits of multi-Service
      acculturation.

      Joint Staff Comments. The Joint Staff concurred, stating that its Chairman’s
      Process for Accreditation of Joint Education Team completed a quality
      assessment at AFSC. A Joint Staff review is ongoing for all JPME objectives,
      course length, faculty and instructive modes, in coordination with the Office of
      the Secretary of Defense and Service representatives.

      Evaluation Response. The Joint Staff comments were partially responsive.
      We request that the Director, Joint Staff provide additional comments regarding
      the anticipated completion date of this review, and a concurrence or
      nonconcurrence with potential monetary benefits.

      B.2. We recommend the Director, Joint Staff, at the next combatant
      commanders’ conference:

            a. Confirm that a reduction in Joint Professional Military
      Education Phase II course length is supported by the combatant
      commanders and is in the best interests of the joint community.

             b. Determine what change to Title 10, United States Code,
      Section 663, is deemed necessary.

      Joint Staff Comments. The Joint Staff concurred, stating that it is reviewing
      JPME Phase II matters, including the future of JPME Phase II. The working
      group recommendations will be coordinated with the combatant commanders.




                                          14
  Finding B. Joint Professional Military Education Phase II Course Length



U.S. Pacific Command and U.S. Central Command Comments. Although
not required to comment, both the U.S. Pacific Command and the
U.S. Central Command supported the finding and recommendations. The
U.S. Pacific Command indicated that it has made the recommendation to
shorten the course three times within the last 3 years, based on feedback from
graduates, and that now may be the time to fine-tune the course. The
U.S. Central Command also indicated that it supports the finding and is in favor
of an 8- or g-week course. This will increase the time on-station and
productivity of officers concerned, and will significantly increase the number of
officers that can be trained as JSOs.




                                   15
Part II - Additional Information
Appendix       A. Evaluation              Process


Scope and Methodology
    Scope. The evaluation focused on the effectiveness of the JPME Phase II
    program in meeting the requirements of the Goldwater-Nichols Act, in
    educating joint officers, and in developing JSOs to support joint billets. We did
    not review or analyze the content of the JPME Phase II curriculum.

    Data Gathering. We obtained and reviewed the 1986 Goldwater-Nichols Act
    and related amendments, DOD policies, CJCS regulations, Service regulations,
    and policies and procedures regarding JPME Phase II. We reviewed
    documentation provided to us by the Joint Staff, the National Defense
    University, the Armed Forces Staff College, and the four Service personnel
    centers covering the period of 1995 through 1997. We provided questionnaires
    to selected personnel at all nine combatant commands and Service personnel
    centers. We interviewed DOD personnel managers, including Service personnel
    managers, members of the Joint Staff who have oversight of military education,
    and personnel at the National Defense University and the AFSC. We also
    interviewed 58 graduates of the AFSC and 31 graduate supervisors at
    three combatant commands and the Joint Staff.

    Use of Computer-Processed Data. We did not use computer-processed data or
    statistical sampling techniques for this evaluation.

    Evaluation Type, Dates, and Standards. We performed this program
    effectiveness evaluation from June through December 1997 in accordance with
    standards issued and implemented by the Inspector General, DOD.
    Accordingly, we included those tests of management controls considered
    necessary.

    Organizations Visited. We visited or contacted individuals and organizations
    within the DOD. Further details are available upon request.


Management Control Program

    DOD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that the programs are
    operating as intended and to evaluate the adequacy of the controls.




                                       18
                                             Appendix A. Evaluation      Process




Scope of Review of the Management Control Program. We reviewed the
adequacy of management control procedures for oversight of the JPME Phase II
by the Office of the Secretary of Defense, the Joint Staff, and the Services. We
did not review the adequacy of management’s self-evaluation of those controls.
Adequacy of Management     Controls. Management controls of the JPME
Phase II program were adequate in that we identified no material management
control weaknesses.




                                  19
Appendix B. Summary of Prior Coverage
    During the last five years, the Inspector General (IG), DOD, issued a report on
    the joint manpower process. The General Accounting Office, in response to
    Congressional direction, performed a review of the progress made by DOD in
    the implementation of recommendations made in the DOD report. Another
    report, done under the auspices of the Under Secretary of Defense for Personnel
    and Readiness, studied the potential cost savings from the possible consolidation
    of the Services command and staff colleges and war colleges. Additionally, the
    Joint Staff requested that RAND conduct an analysis of the size and composition
    of the JDAL.


General Accounting Office

    General Accounting Office Report No. NSIAD-97-229 (OSD Case
    No. 1431), “Joint Manpower Process: Liited Progress Made iu
    Implementing DOD Inspector General Recommendations,” September 19,
    1997, was conducted as a follow-up review to IG, DOD, Report No. 96-029,
    Qqection      of the Department of Defense Joint Manpower Process,”
    November 29, 1995. The IG, DOD, inspection reported significant deficiencies
    in DOD joint personnel requirements and management program, and made
    recommendations for improvement. The General Accounting Office was
    requested by Congress to track the progress of implementing the
    recommendations made in the IG, DOD, report. The General Accounting
    Office reported that some action was being taken on the recommendations,
    including the publication of DOD Instruction 1300.20 and DOD
    Directive 1300.19, which provide guidance on joint personnel requirements for
    all joint organizations. The General Accounting Office considered that those
    actions satisfied the recommendations cited in the IG, DOD, report on this topic.
    The General Accounting Office did not make any recommendations to the DOD;
    therefore, no response was required. The report notes that DOD provided oral
    comments, which generally concurred with its findings.


Inspector General, DOD

    IG, DOD, Report No. 96-029, “Inspection of the Department of Defense
    Joint Manpower Process,” November 29,1995. The report documents the
    inspection of the process used to determine, validate, approve, assign, and
    manage manpower at joint organizations. The inspection also assessed the
    ability of the Secretary of Defense, the CJCS, and the Secretaries of the
    Military Departments to monitor the careers of officers serving in the joint
    arena, with emphasis on those officers designated as JSOs. Additionally, the
    report covered the processes used to employ Reserve component individual


                                       20
                                          Appendix B. Summary of Prior Coverage



      mobilization augmentees within joint organizations, to include the provision of
     joint training and education needed for select Reserve officers. The report
     identified the following systemic deficiencies.

             l   The processes used to determine manpower requirements for joint
     organizations were inadequate.

             l  The mechanisms used to validate and approve manpower
     requirements for joint organizations were inadequate.

             l   The Services were unable to satisfy the manpower requirements for
     joint organizations and were inconsistent in validation procedures and manpower
     requirements determination.

             l   Support from the Secretary of Defense, the CJCS, and Secretaries of
     the Military Departments in monitoring the careers of officers serving in joint
     billets was inadequate.

             l   Joint policy, education, and training of Reserve officers assigned to
     joint organizations were inadequate.

     The report made 17 recommendations. Management concurred, or partially
     concurred, with 16 of those recommendations. The Under Secretary of Defense
     for Personnel and Readiness proposed an alternative that satisfied the intent of
     the other recommendation.


Office of the Secretary of Defense

     Under Secretary of Defense for Personnel and Readiness, Tonsotidation of
     War and Staff Colleges Study,” March 1994. The Under Secretary of
     Defense for Personnel and Readiness, under the direction of Congress, studied
     the potential cost savings from consolidation of the Services’ command and staff
     colleges and war colleges, and those colleges’ administration. The team
     conducted this study from a view of possible enhancements to joint education
     and training that mrght result from consolidation of these institutions, and a
     comparison of savings achieved through vertical integration of admmistrations
     withm each Service. At the outset of this study, the team decided to only
     review those alternatives with the potential to recover all costs within 5 years of
     implementation. The team considered four geographical relocation alternatives
     with recommended consolidations, and concluded that geographic relocation for
    any of the colleges was not economically viable due to the high cost of new
    construction. The team also concluded that professional military education was
    a prudent investment as a force multiplier for the safeguarding of our nation.
    The team determined that joint colleges provided joint professional competence
    in an officer’s professional development, and recognized that Service colleges
    provided Service-specific professional education. The team concluded that both
    joint education and Service-specific education were imperative.


                                         21
Appendix B. Summary    of Prior Coverage




Joint Staff
     RAND, National Defense Research Institute, Paper MR-622-JS,
     “Identifying and Supporting Joint Duty Assignments,” 1996. The Joint
     Staff, Director of Manpower and Personnel, requested RAND conduct an
     analysis on alternative policy choices for the size and composition of the JDAL
     and for joint officer management. The RAND researchers assessed both how
     well the individual Services replenish and rotate officers in and out of joint
     billets, and how well the organizations owning the billets manage them. The
     analysis produced eight recommendations. Some of the recommendations
     included ranking of joint billets on a level of jointness; more objective
     methodology for identifying critical billets; and allowing junior officers
     (captains and lieutenants) to receive joint credit. As of December 1997, none of
     those recommendations had been implemented.




                                       22
Appendix C. Service Joint Professional Military
Education Phase II Processes


Timing of Attendance

     JPME Phase II course attendance is coordinated among the Services and the
     joint organizations to which officers are assigned. The Services select officers
     for assignment to joint billets and, based on those selections, determine which
     officers are eligible to attend JPME Phase II. The Services then develop
     prioritized JPME Phase II attendee lists and coordinate attendance of officers
     with the joint activities. Officers are then scheduled for a JPME Phase II course
     and attend TDY en route or TDY and return. In cases where the Services are
      unable to fill their quotas, they release unfilled seats to the Joint Staff for
     further coordination and potential use by other Services.


Course Selection Processes

     Army. The Army has a screening process in place to review the files of
     officers eligible to attend JPME Phase II and to be nominated for JSO
     designation. The Joint Management Branch, Distribution Division, within the
     Officer Personnel Management Directorate at the U.S. Total Army Personnel
     Command, is responsible for determining which officers will attend JPME
     Phase II. Officers are selected based on their qualifications and promotion
     potential, with attendee lists developed based on priorities. The Director,
     Officer Personnel Management Directorate, approves all nominations for joint
     positions. The Army attempts to send officers to AFSC TDY en route. When
     that is not possible, they coordinate with the joint activities, with emphasis on
     releasing officers to attend JPME II within the first year of the joint assignment.
     Ultimately, however, the release authority rests with the joint activities, limiting
     the Army’s control. The Army was the only Service that consistently met the
     Goldwater-Nichols Act requirement to fill at least 50 percent of its joint billets
     with JSOs or JSO nominees throughout 1997.

     Navy. The Navy’s Special Assistant for Joint Matters, Distribution
     Department, Distribution Management, Allocation, Resources and Procedures
     Division under the Chief of Naval Personnel, is responsible for monitoring joint
     duty assignments and assigning quotas for JPME Phase II. The course
     attendance lists are developed based on priorities, with first priority going to
     those officers who are en route to their joint assignments and second priority to
     those officers who are in the first year of their joint tours. Priorities are based
     on guidance contained in CJCS Instruction 1800.01. All school requests are
     forwarded to the office of the Special Assistant for Joint Matters from Navy
     assignment officers or joint organizations to which the joint officers are


                                          23
Appendix C. Service Joint Professional Military Education Phase II Processes



      assigned. The Navy had the highest percentage of personnel sent to the AFSC
      TDY en route, with 43 percent in academic year 1996 and 48 percent in
      academic year 1997.

      Air Force. Two offices within the Air Force handle joint matters: the Joint
      Officer Management Branch at the Air Force Personnel Center, San Antonio,
      Texas, and the Air Force Colonel Matters Office (the Colonels’ Group) in the
      Pentagon. The Air Force Personnel Center manages Air Force-controlled joint
      billets for lieutenant colonels and majors, and determines which of those
      officers will attend JPME Phase II. The center reviews and ranks the
      nominations according to priorities, based on Joint Staff and statutory criteria.
      Priority is given to officers who attend the AFSC TDY en route. The
      remaining seats are filled through nominations from joint organizations. The
      Colonels’ Group manages Air Force joint billets for colonels and uses similar
      criteria for selection.

      Marine Corps. The Officer Assignments Branch within the Manpower and
      Reserve Affairs Department, Headquarters, U.S. Marine Corps, has sole
      responsibility for determining which officers will attend JPME Phase II. It
      designates 39 officers per year to attend the AFSC JPME Phase II intermediate
      course in the year following their completion of an Intermediate Service School.
      Officer designations are based on filling critical billets on the JDAL and
      consider officers’ qualifications, promotion potential, and military occupational
      specialties. The Marine Corps’ intent is to identify promising officers, before
      they attend an Intermediate Service School, for the purpose of growing and
      maintaining a pool of officers suitably qualified to be assigned as JSOs to
      various critical joint duty assignments within the Marine Corps. Officers are
      then chosen for subsequent attendance at the AFSC and a follow-on joint
      assignment.




                                          24
Appendix D. Summary of Potential Benefits

Recommendation                                                        Amount or
   Reference                  Description of Benefit                Type of Benefit

A.l.a., A.l.b.,   Program Results. Greater use of JPME II         Nonmonetary.
and A.2.          graduates during a typical 36-month joint
                  assignment.

A.1.c. and        Program Results and Economy and                 Nonmonetary.
A-3.              Efficiency. Reduces last minute student
                  withdrawals and increases annual attendance.

B.l. and B.2.     Program Results and Economy and                 Nonmonetary.
                  Efficiency. Increases number of graduates by
                  200 to 225 annually.

                  Program Results and Economy and                 Funds put to better use:
                  Efficiency. Reduces per diem costs (offset      ranging from $593,000
                  by added transportation costs) as a result of   to $680,000 annually,
                  shortening JPME Phase II course at the          $3.6 million to
                  AFSC from 12 to 8 weeks.                        g;DFlhon     in 6 years
                                                                          .
                  Program Results and Economy and
                  Efficiency. Reduces per diem costs (offset by   Funds put to better use:
                  added transportation costs) as a result of      ranging from $163,000
                  shortening JPME Phase II course at the          to $259,000 annually?
                  AFSC from 12 to 9 weeks.                        $1.0 to $1.6 million m
                                                                  6 years (FYDP).

                                                                  The Services’ operation
                                                                  and maintenance
                                                                  appropriations would
                                                                  benefit from the funds
                                                                  put to better use:
                                                                  2020A - Army,
                                                                  1804N - Navy,
                                                                  3400F - Air Force, and
                                                                  1106N - Marine Corps.




‘For calculation of per diem costs, see page 24.
                                             25
Appendix D. Summary of Potential Benefits




Calculation of Potential Per Diem Funds Put to Better Use2

Per diem costs for current 12-week tours .
900 students annuaUy at $4,531 per student equals $4.08 million each year.
                                                          . .
Ber diem tats forsuguested 8-week cow with 200 add&gnal students in added clasS,
                                                                               .

1,100 students annually at $3,003 per student equals $3.30 million each year.
Funds put to better use - $680,000 annually.
                                                          . .
Per diem costs for suggested g-week course with 225 addrtro nal students in r&&d class,.
1,125 students annually at $3,003 per student equals $3.37 million each year.
Funds put to better use - $593,000 annually.

Perested                      g-week course with 200 additional students in added class;
1,100 students annually at $3,385 per student equals $3.72 million each year.
Funds put to better use - $259,000 annually.

Per diem costs for suggested g-week course with 225 additional students in added class;
1,125 students annually at $3,385 per student equals $3.8 million each year.
Funds put to better use - $163,000 annually.




*Funds put to better use have been offset by $475 transportation costs for each
 additional student.
                                           26
Appendix E. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Force Management Policy)
   Deputy Assistant Secretary (Military Personnel Policy)
      Director, Officer and Enlisted Personnel Management
Assistant Secretary of Defense (Public Affairs)
Director, Defense Logistics Studies Information Exchange

Joint Staff
Director, Joint Staff
   Deputy Inspector General
   Director for Manpower and Personnel
   Director for Operational Plans and Interoperability

Department of the Army
Chief of Staff of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army for Manpower and Reserve Affairs
Deputy Chief of Staff for Personnel
  Commander, U.S. Total Army Personnel Command
      Director, Officer Personnel Management Directorate
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Chief of Naval Personnel
   Special Assistant for Joint Matters
Auditor General, Department of the Navy




                                            27
Appendix E. Report Distribution




Marine Corps
Commandant of the Marine Corps
   Deputy Chief of Staff for Manpower and Reserve Affairs
      Assistant Deput Chief of Staff for Personnel Management
Inspector General, 0 Yfice of the Commandant of the Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Manpower, Reserve Affairs, Installations and
   Environment)
Inspector General, Office of the Secretary of the Air Force
Chief of Staff, Air Force
Deputy Chief of Staff, Personnel
   Commander, Air Force Personnel Center
   Chief, Assignment and Joint Policy, Air Force Colonel Matters Office
Auditor General, Department of the Air Force

Unified Commands
Commander   in   Chief,   U.S.   European Command
Commander   in   Chief,   U.S.   Pacific Command
Commander   in   Chief,   U.S.   Atlantic Command
Commander   in   Chief,   U.S.   Southern Command
Commander   in   Chief,   U.S.   Central Command
Commander   in   Chief,   U.S.   Space Command
Commander   in   Chief,   U.S.   Special Operations Command
Commander   in   Chief,   U.S.   Transportation Command
Commander   in   Chief,   U.S.   Strategic Command

Other Defense Organizations
National Defense University
   Armed Forces Staff College
   Industrial College of the Armed Forces
   National War College
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                              28
                                                    Appendix E. Report Distribution



Non-Defense       Federal Organizations           and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                         29
Part III - Management   Comments
              Department         of the Navy Comments
Final Rewrt
 Refer&e




                   MEMGRANDUM FOR THE DEPARIURNT OF DEFENSE INSPECIOR GENERAL FOR
                                      AUDITING

                   SUBJECT:   DODIG Draft Report:  Evaluation Report on Joint
                              Professional Military Education Phase 11, Project
                              Number   7RB-9038   - ACTION   MEMOMNDU?4

                       I am responding to your memorandum, Attachment 1, concerning
                   the evaluation to determine whether the JPME Phase II program is
                   meeting the provisions of the Goldwater-Nichols Act.

                       The Navy and Marine Corpa responses to the draft audit report
                   are provided (Attachments 2 h 3). We have carefully reviewed and
                   concur with the draft report's findings and recommendations. The
                   Navy and Marine Corps are working closely with OSD and JCS
                   representatives to ensure the process for assigning Naval
                   officers to JPME Phase II maximizes use of limited quotas.

                         We have reviewed all directives and policies pertaining to
                   the assignment officers through Armed Forces Staff College to
                   ensure   that Navy and Marine Corps officers are assigned to joint
                   billets, fulfilling Goldwater-Nichols requirements. Assignment
                   policies are in force which have made a positive and lasting
                   impact toward meeting these requirements.
                                                        i
                                                              I-      I
                                                     (! '.         -. F :'   :
                                                   r. \Y i,. . 2, Jc
                                                      Karen S. Heath
                                                      Principal Deputy




                  Attachments:
Deleted           1. DGDIG memo of 27 February 1998
                  2. Navy comments on Draft Report
                  3. Marine Corpo comments on Draft Report




                                                  32
                                                         Department of the Navy Comments




                                        Navy Ccunmants
                                               On
                           DODIG Draft Report of 27 February 1996
                                               on
            Evaluation    Report on Joint Professional Military Educelion   Phase II
                                   Project Number 7RB9038

Bummarv     of DODIG fin-        and re-

        - DODIG found that In November 1997, there was l shortfall of 189 JPME Phase
II graduates in joint billets. The shortage of officers trained in joint matters limited the
level of expertise required by the Goldwatar-Nichols     Act (FindinQ A).

       - The Armed Forces Staff College JPME Phase II 12.week course was too long
and could be shonened without sacrificing the quality of the education. The length of
the course is mandated by Title 10. United States Code, Section 663 (10 U.S.C. 663).
Reducing the length of the course and adding another course during each year at the
Armed Forces Staff College could result in an increased throughput of approximately
200 or more students annually (Finding B).

DODIG recommended the Navy, the Air Force end the Marine Corps Service personnel
managers maximize the practice of sending officers to the Armed Forces Staff College
en route to a joint billet; schedule offbcers who attend the Armed Forces Staff College
after reporting to their joint billets as early as possible in their joint tour; and
aggressively use alternate student lists for JPME Phase II to take advantage of any
saats vacated al the Armad Forces Staff College. The DODIG recommended that the
Navy send more officers to joint assignments after they attend the Armed Forces Slaff
College. They also recommended that tha Director, Joint Staff, designate a single point
of contact to coordinate last minute JPME Phase II course substitutions for lhe Armed
Forces Staff College. They recommend that the Director, Joint Staff, examine the
JPME Phase II course and determine how much it can be shortened while still
maintaining the quality of joint education and achieving the desired benefits of multi-
service acculturation.     Further, they recomme nded that the Director, Joint Staff, confirm
combatant commanders’ support for a shortened JPME Phase II course at the next
commanders’ conference and determine what change lo 10 U.S.C. 663 is deemed
necessary

Navv Statement

        The following    comments address findings and recommendations        pertinent   to
Navy.

Findino A, Short ac of Join1 Professional Militarv Educat ion Phase II Graduates.
DODIG f&d      thar in November 1997 thare was a shortfall of 169 JPME Phase II
graduates in joint billets. Factors &ributing  to this shortfall were the timing of




                                               33
Department     of the Navy Comments




         attendan-.     the asrignrnent of Navy graduates to other than joint billets after course
         completion, the empty rests caused by late withdmwals, and the throughput at the
         Armed Forces Staff College due to its limited capacity. This shortage limited the level
         of joint expertise required by the Goldwater-Nichols  Act.

         Four factors specifically   contributed   to this shortfall:

                - Timing of attendance - in order to comply with CJCS instructions, officers being
                sent to joint billets should attend JPME Phase II as early as possible;

                - Navy assignment practice to joint billets - assigning AFSC graduates to non-
                joint billets contributed to the shortage of JPME Phase II graduates filling JDAL
                billets;

                - Late withdrawals - late withdrawals of offirs  from the JPME Phase II
                attendance list at the AFSC resulted in unfilled course seats;

                - Limited capacity - the limited capacity of the AFSC was a significant factor in
                the shortage of JPME Phase II graduates.

        &tyy Resoonse:      Concur, with comments. See actions taken in response to
        recommendations     Ala. Alb. Ale and AZ. Defer action on A3 to Director, Joint Staff.

        Recommendation      A.1 .a. That the Chief of Naval Personnel; the Commander Air Force
        Personnel Center; and the Assistant Deputy Chief of Staff for Manpower and Reserve
        Affairs, U.S. Marine Corps, establish the necessary controls and procedures to
        maximize the practice of sending omcers to the Armed Forces Staff College en route to
        a joint billet.

        Navv Resoow         Concur. Navy will review and revise, as appropriate, all policies and
        directives pertaining to follow-on joint duty assignment practices to emphasize
        maximum use of Armed Forces Staff College quotas for those officers on permanent
        orders to a joint duty assignment billet. A February 1997 policy has already been
        established which prioritizes AFSC seating for the expressed purpose of capturing
        oflicers on orders en route to joint activities. Anticipate completion of review by 30
        September 1999.

        Recommendation-:           That the Chief of Naval Personnel: the Commander Air Force
         Personnel Center; and the Assistant Deputy Chief of Staff for Manpower and Reserve
        Affairs, U.S. Marine Corps, establish the necessary controls and procedures to
        schedule offloan who attend the Armed Forces Staff College after reporting to their
        joint assignments as early as possible within the first year of those joint assignments.

        Navv Rgfioonse; Concur. As indicated in response to A.l.a., the Navy has already
        established an assignment policy to give hiih priority to those offtcers en route to or




                                                   34
                                                            Department of the Navy Comments




 within their first year onboard joint activities. Navy will further establish procedures by
 30 September 1998 to systematically contact joint activities to notify them of officers
 lacking JPME Phase II, in order to aggressively pursue officers assigned within their
 first year. This will be an ongoing coordination between Navy and the joint activities.

                on A. 1.6: That the Chief of Naval Personnel; the Commander Air Force
Personnel Center; and the Assistant Deputy Chief of Staff for Manpower and Reserve
Affairs, U.S. Marine Corps, establith the necessary controls and procedures to
aggressively use standby lists of attemate students to fill any seats vacated.

f!law Resoonwp: Concur. Navy will include these recommendations     into the
establishment of procedures outlined in response to A.1.b. Expected completion         is 30
September 1998.

Recommendation   A.2.: OOOIG recommend the Chief of Naval Personnel take steps
needed to ensure that more officers are assigned to joint billets following attendance at
the Armed Forces Staff College.

Raw Resoonqg: Concur. Navy will additionally review assignment policy and
prioritization to ensure every effort is made to detail Armed Forces Staff College
graduates to joint activities to the maximum extent possible. Additionally. the recent
AFSC proposed changes to class size and composition will assist the Navy in optimal
utilization of our limited quotas. This review will be completed no later than 30
September 1998 pending approval of the FY99 Armed Forces Staff College class
schedule.

Findina 6: Joint Professional Militarv Fducation Phase II Course Lenath. OOOIG found
lhat the AFSC JPME Phase II l&week course was too long and could be shortened
without sacrificing the quality of the education. A reduction in course length and an
added class would increase AFSC JPME Phase II graduates by approximately 200 to
225 students annually.

CJavv Resoonsg:    Concur.   Defer specific response to Oirector, Joint Staff.

      mmendation 0.1.: That the Director, Joint Staff, examine the curriculum and
determine how much the Joint Professional Military Education (JPME) Phase II course
can be shortened without diminishing the quality of joint education or diminishing the
desired benefits of multi-Service acculturation.

&tyy   Resoonsg:   Oefer action to Director. Joint Staff.

mation            B.P.a,: That the Director, Joint Staff, at the next combatant
commanders’ conference confirm that a reduction in JPME Phase II course length is
supported by the combatant commanders and is in the best interests of the joint
community.




                                      35
Department of the Navy Comments




       &jyy@swnw:       Chaferaction to Director, Joint Staff.

                              : That the Director, Joint Staff, et the next combatant
       commanders’conference determine what change to Title 10, United States Code,
       Section 663, is deemed necasrary.

       v~eswnse:        Deft 8ction to Dkedor. Joint Staff.




                                                 36
                                                    Department    of the Navy Comments




                           DEPARTMENT OF THE NAVY
                      6EAWUARlERS  UNITED STATES MARINE   CORPS
                                  2 WVV ANN@!*
                             WA*“INOToN. DC ?00#0.177s




HEHORANDVM   FOR   THE INSPECTOR GENERAL. DEPARTMENT OF DEFFNSE

Sub!:   EVALUATION REPORT ON JOINT PROFESSIONAL MILITARY EDUCATION
        PHASE iI (PROJECT NO. 7RS-9039!

Ref:     ia) DOD-IG Draft Evaluation Report !Project No. 7R6-9C38;
             dtd 27 Feb 99

1. The following comments are submitted in response tc the
applicable "Recommendations for Corrective Action" listea In the
reference.

     a. “Maximize  the practice of sending officers to             ihe   Armed
Forces Staff College en route tc a joint billet."

Concur--With few exceptions, we execute our assigcmcn:s to joint
duty during the sunvnermonths. Consequently, all of our officers
who attend     AFSC in an enroute status attend the class that begins
in June of each year. The Marine Corps has a quota for I5
officars in the June class. We fill as many of these quotas as
possible with officers who are enroute to their next duty station
 (a joint assrgnmenc) immediately following graduation from
Intermediate Service School (iSS).       gnfcrtunately, we are often
limited in this, as noted in the reference, oy parent
organizations     whose requirements don't always coincide 21th our
own, and who are, more importantiy, unuiliing to accept a three
month gap in a position without the benefit of a turn-over. We
concur that we should maximize the practice of sending officers
to AFSC enroute and will continue to do so within the constraints
that arise from the particular requirements of the various joint,
parent     organizations.

b. "Schedule officers who attend the Armed Forces Staff Ccilege
after reporting to their jcint assignments as early as possible
within the first year of those joint assignments."

Concur--Although it hds been our intent to send 123% ?f ocr
designated officers        to JPMF Piase II during the f:rst year
followlnq gradudrion from ISS, we have not always beer, able tc do
so. Cur principal hindrance nas arisen from joir,:orgsnlzat;or,s
who have not agreed to release officers to go to school during
the desrred time-period. Secause of needs cf the organiration,
many times  these    officers     are   noL made available Lo attend    AFSC
until he second year of their tour, or iater. We will continue
to make every   effort      to schedule    officers to AFSC during   the
first year of assignment to joint duty again, within the very
real constraints impcsed by the parent organizatiocs.




                               37
Department of the Navy Comments




       Subj :       EVALUATION REPORT ON JOINT PROFESSIONAL MILITARY            EDUCATION
                    PHASE II (PRCJECT NO. 7RB-4038)


             “Aggressively         use   standDy lists of alternate s:udents to fiil
       zny seats vacated."

       Conour--We   have in the past, and will continue in the future, ~0
       aggressively    use our star.d-by   list    ~0 ensure we fill    as many of
       cu: quotas--and more, if possible--at AFSC.            We currently    have
       aflocations   for 39 officers     to attend    the intermediate     course and
       6 to attend the senior course        (total   45) annually.     Attendance in
       the past three academic years was as follows: AY95 - 48. AY96 -
       46,    AY97 - 48.      During the first three  sessions of AY98, we have
       enrolled a total of 35 students.         Assigned quotas to date toial
       34. Although, on occasion, we have been unable to fill             seats   ir.
       a particular       class,  our aggressive use of our stand-by    list    has
       er.abled   us fo go after unfilled quotas from the other Services
       curing other classes. The net effect          has beer. that in each of
       the last     three    academic years we nave Surpassed   OUT rotdl
       allocation      of    officers    attendiq   AFSC.   We ate   on track   to   do   so
       again this year.

       2. Point of contact for this matter is Major C. E. Smith,
       Headquarters, U.S. Marine Corps, Cfficer Assignments Rranch, DSN
       224-5211/2740, convnercral (703) 614-5211/2740.




                                            38
Department               of the Air Force Comments
                                                                                                             Final Report
                                                                                                             _Refemce


                                  DEPARTMENT           OF THE AIR FORCE
                                  MADQVARTERS        VNmo  STATESAIR FORCE
                                                 WAaHINGTou
                                                         DC




     MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDITING OFFICE OF
                    THE INSPECTOR GENERAL DEPARTMENT OF DEFENSE

     FROM:     HQ USAFIDP
               1040 Air Force Pentagon
               Washington, DC 20330-I 040

     SUBJECT:      DoD IG DraA Report. Joint ProfessionalMilitary Education Phase II, 27 Feb 98,
                   Project No. 7RB-9038

            This is in reply to your memorandum requestingthe Assistant Sccr~tary of the Air Force
     (Financial Management and Comptroller) to provide Air Force comments on subject report.

             The following comments arc provided in regards to the draft reports recommendations:

               L Recommendation A. 1.a. - Maximizs the practice of sending offkers to the Armed
     Forces Staff College en route to a joint billet: Concur with the intmt; however, the Air Force is
     maximizing the practice of sending officers en routc FDY to AFSC. As the DOD report
     indicated the “Air Force gives priority to offkrs who attend the AFSC TDY en route.” We
     continue to improve our overall percentageof oBicen attending en route and have improved by
     three percent points over the 1as1three years. We will continue to send offkcrs en route when
     class dates correspondIO their rssignment repotting dates. However, overall en route
     percentagesarc determined by wignmcnt reporting dates and scheduledclassesfor which the
     Air Force bs very little control over.

                b. Recommendation A. I .b. - Schedule off~ccrswho attend the Armed Forces Staff
     College after reporting to their joint assignmentsas early as possible within the first year of those
     joint &ssignmcnts: Concur with intent; however, the Air Force is sending 81 percent of their
     officers to AFSC within their first year of their joint assignment. The Air Force Personnel
     Center continuesto make this the secondpriority tier those who attend etuoutc.

               c. Recommendation A.1 .c. - Aggressively use standby lists of alternate studentsto fill
     any acats vacated. Concur with the intent; however, the Air Force already complies with this
                                                                                                              Deleted
     mcommendation. The Air Force has aggressively ttacd, and will continue to aggressively use, its
     standby lists as referenced in the DOD draft report, ” Three of the four .%-vices did not meet their




                                                39
Department of the Air Force Comments




                                                                                                   2

       quotas for filling suts...Tk Air Force made the most aggrchve and effective use of its standby
       hi, as evidenced by the Air Force filling 100 prrcent of its quota for academic year 1997 and
       filling want sWs of other Servicer”




       CC:
       SAFIFMPF
       SAF/MIM




                                                    40
Joint Staff Comments


                                           THE JOINT STAFF
                                            w-ow,      DC




     Reply ZIP Code:                                                         DJSM 553-98
     203 18-0300                                                             18 May 1998


     MEMORANDUM              FOR THE INSPECTOR GENERAL OF THE DEPARTMENT OF
                                 DEFENSE

     Subject:     Evaluation Report on Joint       Professional    Military Education   Phase II
                  (Project No. 7RB-9038)


      1. As requested,’ the Joint Staff has reviewed the draft DOD IG report on
     JPME Phase II, following the IG team’s visit to the Armed Forces Staff College
     (AFSC). The Joint Staff comments are enclosed.

     2. Also enclosed are management     comments on the draft report forwarded                 by
     the Resident,   National Defense University, and the Commandant,   Armed
     Forces Staff College.

     3. The Joint    Staff   point of contact   is Lieutenant     Colonel Chine,   USAF, J-7,
     697-1264.


                                                         DENNIS C. BLAIR
                                                         Vice Admiral, U.S. Navy
                                                         Director, Joint Staff




     Enclosures

     Reference:
     1 OIG DOD memorandum,        27 February 1998, ‘Evaluation   Report on Joint
        Profeesional Military Education Phase II (Project No. 7RB-9038)’




                                            41
                 Joint Staff Comments


Final Report
 Reference

                                                           ENCLOSURE

                         JOINT STAFF COMMENTS ON JOlNT PROFESSIONAL MILITARYEDUCATION
                                                    PHASE II

                         1. The following arc Joint Staff comments on three recommendations cited in
                         the Executive Sumrrnuy, page ii, Summary of Recommendations paragraph.

Re.comm5d~tioc              a. &mu.                   The Director, Joint Staff, designate a single point
     A.3
                        of contact to coordinate last minute JPME Phase II course substitutions     for the
                        Armed Forces StafI College.
                                 The action recommended on page ii of the executive summary and page
                        QA.3 of the report has been taken and should bc removed from the tlnal report.
                        In the CJCSI 1800.01, February 1998. revision, ‘Chairman’s Offtcer
                        Professional MMtaq Education Policy,’ (OPMEP), page C-Sd, Student Quota
                        Reallocation, J-7 Military Education Division is the oingle point of contact for
                        all quota allocations.
                            b. -wZ.                    The Director, Joint Staff, examme the JPME
                        Phase II course and detennlne how much it can be shortened while still
                        maintaining the quality of jotnt education and achieving the desired benelits of
                        multi-Service acculturation.

                                 (1) Concur. The Chairman’s Process for Accreditation of Joint
                        Education (PAJE) Team, as mandated in CJCSI 1800.01, is the process for
                        quality assessment of our joint programs. The PAJE accreditation visit to AFSC
                        was conducted in January 1998. The team of 15 educators included members
                        fr\jm the Service’s intermediate and senior level colleges, a DOD educational
                        representative, and an independent technical advisor. They reviewed AFSC’s
                        strategic plans, curriculum, faculty and faculty development, and most
                        important the quality of meeting the OPMEP learning objectives. The fInal
                        report cited that AFSC was doing an excellent job of meeting all learning
                        objectives. The Chairman officially accredited AFSC on 20 March 1998, which
                        rcaftkmed AFSC’s program for a 5-year period.
                                (2) A Joint Staff led review is under way for all JPME objectives, course
                        length, faculty and instructive modes, in coordination with OSD and Service
                        representatives.




                                                                 1                       Enclosure A




                                                          42
                                                                          Joint Staff Comments


                                                                                                 Final Report
                                                                                                  Reference




   C. mU3.                     The Director, Joint Staff, confii     combatant                   Recdtin
commandem’ support       for a shortened JPME Phase II course at the next                            B.2.
commanders’    conference and determine what change to 10 USC 663 is deemed
necessary.

    Concur. The Joint Staff IS currently reviewing Chapter 38 of Title 10. USC,
which includes a uction on &hefuture of JPME Phase II. The working group
recommendations   will be coordinated   with the combatant commanders.

2. Delete Page i, Executive Summary, Evaluation Results, third paragraph,      last
                                                                                                   Revised
sentence; and page 5, Finding A, fist paragraph,    the last sentence:    The
shortage of trained olRcers in joint matters limited the level of expertise
required by the Goldwater-Nichols    Act (Finding A).’ Do not agree that the level
of expertise is limited. The current figures from the JDAMIS Management
Report, 20 April 98, indicate JDAL positions are filled with 53 percent JSO’s
and JSO nominees.       We have 270 more JSO ofkers serving in JDAL positions
throughout   DOD than required by the Ooldwater Nichols Act.




                                                                   Enclosure   A




                                 43
               Joint Staff Comments


Final Report
  Reference




                                                                Draft DOD        IG
                               1.    PottciEvahhRuulUrrfvcnccd~cs.
                                                           ~donrl         btilitp                                  “In
                                                                  II nf 199 IpMFi phuc 11&atsr      io joint billets
                              Ikmm    m          *, tbir ~bof&ll vmc the thing of msrdm~,       the mignment of
                              Navy -0       to other than w     billets, the unpty w   causedby lrtc withdrawals, and
                              the I-       at the Armed Forces SlaffCol@e due Loit8 limited upacity. l’he
                              rbonrge vf JPME PhK ll-trained officers limited the level ofjoint expertise required by
                              ti Doldwatu-Nichols Act.”

                              w            The rhorthll has nothiq to do with AFSC qaci~y, GUI rrtht~ the timing of
                              Utend8nc4 end am+ment of gmduata to o&u Uua l joint billet AFSC’s annuel output
                              of 900 vfficarr uily meets tk rquimwnt ifhwices lawrt gmdurtm atnrd at the
                              props time uid go 111l jnin l +nmcnt efta graduation

                              2.     Page i Parr. 2

Revised                   s                 ‘The AI:SC JPME Phase II 12-w& cvu~ycwas too tony and could
                          ba sbottaed wilhour ucriticinll the quality of the education ”

                           .
                          m          fhe writi% DGU 10 mcmbcrl did no01      review or rnrlyrr the Lwntmt of the
                          urrriculum. Without this scrutiny, rsy “length of the wrm” rod “qudity of education”
                          discuuion goca bayond the realm of the study. Note: la Appendix A Evuluetion
                          Pnxaq Scope and Malmdniolly, tbc YntuKz ‘We did not review or analyze the content
                          ofthe JPME Phase II curriculum.” should follow the aenteoccoutlined above.

                          3         Pqte 2

                          Profcrriorvllit~n  m.              ‘*. In 1991. the intermedinc court wilr
                          eqmnded to I2 walu. In 1994, tl~ AFSC rlu, eqaaded the nniur course to 12 wzcks ”

                          Commtntr; A8writtcqthcsc es           imply that AFSC made the decision to iaucasc
                          ch COYY IU@I       Rawmmcnd rcphce with the rollowiry. *. .In 1991. w dirtclod by
                          the Joint StefY*. AFSC crpndcd tk i~ewnediatcoout# IO 12 weeks la 1994. an
                          rqu4     by public law l*, the AFSC a&o uptied    the lsnior courx to 12 w&s.

                          l    DJSMdeCPl     dtd 5 Jua 1991

                          l*Scstioa66~dritLlOUScodr~nJt~ndbmthurl                         Juurry 1994,tbc
                          du~x~ivuof the principal U)(IITU diawtrudon et the Ar4      Fo~ctr Staff Collcgc bc nvt
                          lcrr then thra monthsin dudoa.
                                                                                                                            Joint Staff Comments

                                                                                                                                                   Final Report
                                                                                                                                                    Reference




 4.         ?yr 5.



 a:                 Rccaamooded               for cJmity *            Odd~~Nichol~                 &     rquira       uch Service
 tu DWC        thatopproxinutdy 50 p=ceW dJDAL                               billtir      ue   GIled   wilh   JSOs        JSO
 drur,             or Criticd     ocwp8tkwl              spaidty (COS). TICICJO.sot b61 providesa bfuk
 6wn dd                -ory           (37.5    ~efcat      -JD!b’JW         aom8        rnd    12.3 parca~        XtJS)
 NDU/#SC             UwJd       qudu          ar. bud      on 37.5      pefcc.nI       or the IDAL.


 s          Pw       L:
 .
w                    Qirrcpn,linr5Utu’.....  However. limited up&y lt the
USC prtcMod ~DOIIdnurs usipned lo joinl billar Crtmbuing to the JME Pturc II
cwrr TDY a nwta LJiIicerawho rued thr AQSC TOY UI route whnqucntly counr
u JPMES ph8s lI mea       for ?beatk 36&      joiot tour. la lsdrmic yw 1996.
264 onicavx(30 percent)who completedJMG P&M II II Ilr MSC wcrc TDY WIroule
ha wdamic yeu 1997.280 (33 pewnt) WI* TDY WIrou1c.”

                                                                                                                                                   Revised




Jjm                                   Fitw pm           liM 4 al&Ia “_.       .lhM.optimally.          ot%aS        rhculd
complete      their jod         &c&a,           p&r      to or within     tbc Grst ycu          of their j01n1
swiyllnwatr....”


Sawed      pan.      line   7 wtrla     “Scrvisu         ud   joint  activitin UT wquircd   IO rshcdde md
r&we j&m v&en                   for oourmate                      #I early tn thnr joint tow u po.uiblc within
the film yes&r .”




                                                          45
               Joint Staff Comments


Final Report
 Refermu




                             Univwticy U, rr)(oaro unfilltd uaivtrriry rprtq lbu kvtJ oftanml is no1prckal.
                             d or&mlium        involvedicl lbt Mtduling pocur sumi it was not cktr which ufficc
                             djudimta Ibr qut&n ofmoviny WnlIcd billet@folu oar .Smvit.eto tmnha. *




                                   Page 1.




                          m:           Se&t a&nmtm pditier. nm AFSC Capcity UC lht ctmt of JPMJZ
                          @WI      rhonw.    AFSC wnadca@rd by Camgrts~111product PhaseII tduutd
                          uffkar (JSO nomiaecs). Goldwar-Nichnlr AQ requirestack Stmicc I&>CWJICrhr~
                          qmxim4y       50 ptrtu~ oCJDAL bilks are tUlcd with JSOa.IS0 nominru. or Cri(4
                          Occupa&~~I Sptdrlty (CUS). rills JU.Sa 66I pr~vidcra break down of each catcyory
                          (37.5 paent -3OSUrJSOIWIIJ and 12.5 ptrctn~ -COS). .?DU/A)‘SC rnnral yuotrr .rc
                          b4sedO(I 37.5 ptrca% uflht JJMJ,




                         ~$llbo”yh          ant ~MI wu rpcifially idtntifitd. the mgrtm wu csublirhtd KCW
                                    n.       (I) unprvvt WY tn route (2) unprovequnliry of Ilk issuer(3)
                         Improve Jo&ii& lupporf ud (4) improverdminiruativc pnqration. It abouldbe nomd
                         Ib PiJm P-am    dlicially IIM~ with tht Juu97 &am altbarpb CoorJ~Mtionbad btcn
                         wurkinpforwvrtJmo&tpr&ln~kofJkAnutdrtt

                         l    t& TDY o rnac ptrcsnugc fin tht hmt 1997 cl4r wu 62% tn IOUICand the
                              wuafJ penmltgt for I& enrim tc&mic yw wax 31%




                                                               46
                                                                                   Joint Staff Comments


                                                                                                          Final Report
                                                                                                           Reference




  l     Iqzroved A-&n              Pmpwmion sine4 lbc impl~on          ol’rhc PilOl PrllJJram
       ~Wr9tivcclpvr(iocrJbrthestudw~husbecnlwmlioedandimpmved
       ‘Ihc -‘r       rtttittv tiypo~aU,    namdq.     da &$a,  and s&of     rtuae~ arc
       prep4     in dvenca N trpposed to the lest tie.    The nudmts rtiynment to tbr
       tanpow      Student   ORicaQummxareouwliitnl mdftoehzed sooner In the pa
       tkrc rniviriea were awn&        Ia tom cuesIbeFriday prior (II the stti ofclur.
       With the implemcatation nftk Pilotltv~ua tber s~ivhiuwewmplstdonthe
       wmga 2 we& prior to the et~n of cL8r

Lerly. the pilot Proprem un only improve ifall ~uutiu arc taking en lctivc role lfr
student it usiyned to a cummmd. tk !javicc hu no control amto wbetha or not the
audeot will l uaUy report fur Jua bccauae it is up tu II* command IO raully    felmac
cbrnudm~~lamdAFSC
9       page 9 A 3 ‘WC rmmmcnd the Director. Joint SrrfC, io order to reduce lac
wtibdrrwalt axl prevent cu!#v aeets et t&e Joint Prof&~mal hiili~ry Education Phtr        II
                                                                                                            Page 10
court    at the Armed Form StdTColkgc, duignate a singlepoint of cootaa to
coordiitc Lm &utc      uJbstitutionJ.”

Cormncnl: The Servica already work through one tiplc POC ef J-7 wh*r dealing with
the a&m    quotes Th Services wurk vay bard in filling 111ofthe quota as reprguncd
by the aurem Jur date Ciur 98.21 had a quote uf 137 and ti add l-111    was 14 I rad
Clau 9B-1s bad l quaa of32 rod tbmactual vu 33. VIC E*Nices uc utilizinl( tbcir
stand-by ronan, krl the bottnm line k ifthe coamandr do oat relcesc the student then
chrcSltWiU~OUllfUd


IO       Pegc 1u:                                                                                           Page 11
m             “l-be &t-SC JPME Plusc II U-weet cource wa IDO long end could k                               Revised
*cod        w&out naifiiiny  rhe &ity  ofthe education... . . .”
               Joint Staff Comments


Final Report
 Reference




  Page 11                 Il.     Page 10.

                          -:                               ‘.....No longer do atudenu anive at the AFSC with
 Revised                  limited knowf&c  ofjoint opatiom as they did in the past. An unquantifiable number
                          of sludals bve bua expsed tojointnetr throughpuriciprtion in joint operations
                          sanging from Opuatioo Desert Storm to Operation Joint Eodcavor in Bosnia.. ..”

                          cammen(: Tksc statcmcms         arc unfounded. Incomiop studemsare tested via a pretest,
                          which m~~surtl application of t&c isauea. Trended data (6om as far back as I994 to
                          the prescn~) is&ale the average protest aoom is 45 pacca~ suggesting students coming
                          &om JPKE I bavc NOT mastor a broad knowledge of joint issues. The question of
                          Phase I student oompctcr&s has ken discussed by faculty and leaden in both the Phase
                          1 and II schools, and it is apparent Utaxadditional testing instruments should be developed
                          to mcaaurc cortatntcts such aa 0uIgoing Phase I knowledge or incoming Phase II
                          lutowlulpe.

                                  Additionally on the end-of-class survey studentsarc asked aboul tie amount of
                          review of Phase 1 material they received in Phase II (See Graph I). Consistently students
                          said they either were satisfied with the amount of review material (opinions ranged from
                          60 IO 73 percent) OR would like to ace it increased (opinions ranged from I1 IO24
                          percent). The percentage of students who would like to see review decreased is usually
                          higher with students attending lune to September, who often come to AFSC directly from
                          Phase I a&o&. Data generated from students themselves indicate that over 80 percent
                          of AFSC graduates   think the amount of review is about right or would like to see ir
                          increased.




Page 11                  12.     Page 10.

                         m:                               “Personnel at 4 nine combatant commands reported
                         Ihe JPME Phase II oromun at the AFSC was too loon. While the combatant commands
                         did not want to s&i&  the quality ofjoint educationprovided at the AFSC. all nine




                                                           48
                                                                                   Joint Staff Comments

                                                                                                          Final Report
                                                                                                           Reference




                                                                                                            Page 12




m.           At tk westion     ofvisiting members of the DOD Ifi tc8m the hJCJJtWIW
 Division *lb tied      J ow qumiofi Ihu WJJ added to the cad-of-cln~s survey
distributed to atudnu wkn lky &w uwnpktcd the Pksc il proymm                T~J question
as&cd tk mtudaus what they thou@tbr kngthofthe Phase II pm8run shouldk. Sixty-
ti paccn~ (75 adcnfs) &the Cbss 98-I dudorts #ated tbc kngth should br lefi u is,
 12 weeks (See Gnph 2) Cuanent~ &urn nudents included, “1 qr9e the length of t&c
pru@m in su&Uory.         IIOmEK,        fa must oftk Wurscs there il WAY TOO MUCH
conlact time,” “Kep it as is 7lue rho&l k u#br            fixus study, they rally dnvc Ihc
pint bcmc,” “Keep poprn         Iatgib u ir, reduce dtliburtc planuiuy and increase
muhinatiiVc&ition        fbrccs trainin,” ud “Tk knylh ir ok Thcrc i6 plenty of time in
tk m.         Need to make burr w nf Jvribbtr time.” In tbf, JwJd @Jdcrt: J#reed
that (;0111c lqth   should k incrcucd to 13 or IS we&. giving such reasonr aa. “Must
insludc more diion         dmultinrtional ud pea= ~uppoai ope~~tbns        t~uulitton wrrtarr
IL a f&t of life.” “More emphasis on amvice uprhilitio and us&!” a4 “I think ti
nnul UUCA       ~rld k I~ngtttcaod to albw the develapmenl nfthc poccu and productr.”


                                     Crapb 2
                  The ovemll length of the JCSOS class should be:




                                       49
              Joint Staff Comments


Find Report
 Reference




                         their rupavk0n  (kpb   3). Kqiag       in mind thU AFSC’r piaulcr  UC rrsiyacd tn LWW
                         nine dilhrmc -1        areas, i l. J-I, J-2, .J-9. thm UC vey high nruhr. A review of
                         writtm Bry1      &na~ UIS ti nvral yeua wu amduct& and the follnwi~ I)cncrrl
                         ucmentaunbemadc

                                       I.

                                       2.

                                      3



                                               “How     “se%%:e            JCSOS
                                                        Curriculum?”




  Page 12




 Page 12-13




  Page 13




                                                          50
                                                                                Joint Staff Comments

                                                                                                       Final Report
                                                                                                        Reference




                                                                                           ,
p:                                           “llu
                                             Suviccpr wrndd have bm   pa dienr ~00s.                    Page   13
 iwMn~     b&in# rod meJ rllonacc for mcb JPW phase I1 studet. Red&             tk
 ~~~~~Swroluwovldr~vwrUprdicmsslubySl.St9perprsoo
 E-    ddbo uosh      ebu of 200 to 225 ofllcws to the &luul Forces SUIT Cdlcgc
 r~hbrlc, MD    wndd still rdirc S700,oQQ to S77S.W in 5x& put IO bettor UK
WU&       b lk tota ofbwffd     pi Cmn wsts. Tk amount WV&J be romcwh~t rcduccd
by lk rdditiolml tnnspolUlitn of S95,axJ to s107,000 WmUuy (~‘nxiaIusly        s475)
md would rult    in lLdr put to bewr YW ia lb8 wtwunt oft393,OMJ to S61O,(Kwt Bwd
00 Ilu Fuiufo Yaw D&au       l%n (FYDP), tht cutId amount from S3.b million to II. I
mihon & DODuw 8 &yew paiod lb owd uwwd of reducuJ aFndilura
would k ohropd iftk wurw nn          rcdsccd u 9 weeks iastad of8 w&r.     A ratuaion
ircourrknycbto~wrlnwwldnruhLltadrplsrobuaurtincbcrmvuatd
SlKt,OOO to S259.000 ~~nwlly co&d~@         bmd     pu diem msw d    dd~tlorul
trwuportatioacorn SeeAppcadinD bt Qnhw dettils ”

w.           l&     mdy did cot &ospor8c       my cwicuium mrlyws  IO detennim qurlily
nrur     quantity   irma   Thedorc.   tba   prmisc (shoflemdwithoutswificiug the quality
uf education)
            for deermining tbr fis4       aol~lmies is ~OI valid Coti clving un be
r8&zed    at lhe expense of ncyrtivcly inpctipy th~ qurlify of duftii0D




                                       51
U.S. Pacific Command Comments


                         COMMANDER      IN CHIEF. U.S. PACIFIC       COMMAND
                                            (USCINCPAC)
                                CAMP MM. SMITH. HAWAU 96B614026


                                                                                    JO04
                                                                                    5040
                                                                                    IG Ser:   12
                                                                                    22 Apr 90

    To:       Director. Readiness and Logistics Support Directorate, Office of the Inspector
              General, Dapartmant of Defemse, 400 Army Navy Drive, Arlington. VA 22202-
              2684

    Subj:     EVALUATION REPORT ON JOINT PROFESSIONAL                   MILITARY   EDUCATION
              PHASF II !PRO.!ECT NO 7RE-9938)

    Ref:      (a) DOD IG Draft of Proposed   Evaluation   Report, 27 Feb 98

    1. Concur with the findings and recommendations         in ref (a) report.

    2. We wish to provide the following comments:

          a. Finding   A - Shotiagu of JPME Phase I/ graduates.

            (1) USPACOM has numerous non-JPME II graduates filling joint billets. Many of
    thase oftican will depart our command without completing Phase II. Some incoming
    personnel do not meet requirements of the JSO billet. This command has experienced
    some problems over the last lhree years getting qualiired JSOs to till JSO-designated
    billets. Asking the Services to request a waiver to assign a non-JSO to a JSO-
    designated billet or moving the JSO designation to another billet is not appropriate;
    training the right number of officers with the right skilk is appropriate.

           (2) Recommend the Services select ohicers to Mend Phase II based on the skills
    required of JSO billets. For example, do not send an Air Force personnel officer to
    Phase II when there is no requirement for an Air Force personnel officer JSO billet.

             (3) Strongly support the recommendation of a single POC to identify last-minute
    fills for late withdrawals.  Many officers in this command are prepared to respond wilh
    minimum notification.

        b. Finding B - JPME Phase /I course length. Strongly agree with shortening the
    course without diminishing the quality of education. We have made that
    recommendation    thraa times over the past three years. based on feedback from
    graduates.   Whila thara is concam that this will take congrassional action, it is now time
    to pursue congrarrional   authority in order to fin&une this important course and
    consarve valuabk rasoufcas.




                                             52
U.S.Pacific Command Comments




       Subj:   EVALUATION REPORT ON JOINT PROFESSlONAL                  MILITARY    EDUCATION
               PHASE II (PROJECT NO. 7RE9038)

          c. Addittonal  Point    We recently became aware of an AFSC proposal to change
       the Phase II course from four classes a year to three. We have expressed our
       concerns to the Joint Staff Jl and J7. Four other joint commands support our
       concerns.

             (1) The proposed AFSC change will result in canceling the September          1998 class
       and the loss of 240 seats with no apparent plan to absorb the loss.

              (2) Changing the June class to July will force some officers to take leave
       depart@ rSS-!aus! sch!, c!, and ?I;Wj TX;', k&V:;; Xiiooi wiiinin iive aays of graduation,
       but are not allowed to s&r into AFSC until three days prior to classes beginning.

            (3) The AFSC proposal is in direct conflict with some of the recommendations
       made in referenced DoD IG draft report.

       3. POCs are COL Shepherd       (DIG) and COL Colaw (Jll)      at DSN 477-5101    or 477.
       1369, respectively.                                                ,




                                                  JOSEPH E. DEFRANCISCO
                                             /
                                                  Lieutenant General, USA
                                                  Deputy Commander in Chief/
                                                   Inspector General




                                                     53
U.S. Central Command                 Comments




    LdwORANDUh4 FORDOD 10, ATTN: CM7 LAWSON




                              54
Evaluation Team Members

This report was prepared by the Readiness and Logistics Support Directorate, Office of the
Assistant Inspector General for Auditing, DOD.

Shelton R. Young
Lieutenant Colonel Gary L. Williams, United States Army
Major Robert D. Gibson, United States Air Force
Judith A. Heck
Pamela Steele-Nelson
